OFFICE OF THE ATTORNEY GENERAL
Amit Agarwal
Solicitor General
PL-01 The Capitol
Tallahassee, FL 32399-1050
Phone (850) 414-3681
Fax (850) 410-2672
Amit.Agarwal@myfloridalegal.com

ASHLEY MOODY
ATTORNEY GENERAL
STATE OF FLORIDA

November 13, 2020

VIA ELECTRONIC DELIVERY

Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Sean Alonzo Bush v. State of Florida, Case No. 20-6094***Capital Case***

Dear Mr. Harris:
On behalf of the Respondent in this matter, and pursuant to Rule 30.4, I respectfully
request a 30-day extension of time to file the Brief in Opposition, extending the November
23, 2020 deadline to December 23, 2020. The extension is necessary because the Office of
the Solicitor General has a number of pressing deadlines in various other matters with
limited staff assistance. Counsel for Petitioner, Sean Alonzo Bush, does not object to this
extension of time.

Sincerely,
/s/ Amit Agarwal
Amit Agarwal
Counsel of Record

cc:

Nancy Ryan
Counsel of Record

